                Progress Has Been Made in Improving the
              Financial Management of Reimbursable Work
                            Authorizations

                                    October 2004

                        Reference Number: 2005-10-009




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                   DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                         October 26, 2004


      MEMORANDUM FOR CHIEF FINANCIAL OFFICER


      FROM:                 Gordon C. Milbourn III
                            Acting Deputy Inspector General for Audit

      SUBJECT:              Final Audit Report - Progress Has Been Made in Improving the
                            Financial Management of Reimbursable Work Authorizations
                            (Audit # 200410022)


      This report presents the results of our review of the financial management of
      Reimbursable Work Authorizations (RWA). The overall objective of this review was to
      evaluate selected aspects of the financial management of RWAs. Specifically, we
      evaluated procedures related to the timely posting of RWA-related Intra-Governmental
      Payment and Collection (IPAC) System charges and the periodic monitoring of open
      RWAs performed by the Office of the Chief Financial Officer (CFO). We did not
      evaluate either the preparation of RWAs or the year-end accrual of RWA expenditures.
      We also did not review any actions related to the detailed administration of the RWAs,
      which is performed by financial plan managers in the business units and operating
      divisions. This review was performed as part of our Annual Audit Plan and at the
      request of the CFO.
      In summary, the Internal Revenue Service (IRS) has taken a number of positive steps to
      improve the financial management of RWAs. Specifically, controls were enhanced and
      procedures were revised to better ensure the timely posting of RWA-related charges
      and the timely deobligation of unneeded open obligations related to RWAs.
      As a result of these steps, the age of unpostable IPAC System charges in suspense
      awaiting further research decreased from an average of 8 months in December 2001 to
      an average of 2 months as of March 31, 2004. Unpostable RWA-related IPAC System
      charges in suspense as of April 30, 2004, were resolved within an average of
      28 calendar days in a sample of 20 charges. The 20 charges we reviewed represented
      45 percent of the total dollar value of RWA-related charges in suspense as of
      April 30, 2004.
                                              2

In addition, procedures related to quarterly certifications of open obligations by field plan
managers, including those related to RWAs, were recently revised. The revised
procedures, which first affected certifications due in July 2004, emphasize the need for
the certification to be supported by credible evidence and require the thorough
evaluation of obligations open more than 18 months. These procedures, if implemented
as designed, should ensure long periods of inactivity are adequately addressed and
planned completion dates are documented – 2 issues we identified in our limited review
of a sample of 20 RWAs open 18 months or more.
We made no recommendations in this report. However, management officials reviewed
the report and agreed with its contents.
Copies of this report are also being sent to the IRS managers affected by the report.
Please contact me at (202) 622-6510 if you have any questions or Daniel R. Devlin,
Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.
                Progress Has Been Made in Improving the Financial Management
                             of Reimbursable Work Authorizations




                                              Table of Contents


Background ................................................................................................. Page 1
Controls Over Timely Posting of Reimbursable Work
Authorizations-Related Charges Have Improved ........................................ Page 2
The Internal Revenue Service Recently Revised Its Procedures
as Part of an Ongoing Effort to Better Ensure Timely Deobligations,
Including Those Related to Reimbursable Work Authorizations.................. Page 3
Appendix I – Detailed Objective, Scope, and Methodology......................... Page 5
Appendix II – Major Contributors to This Report ......................................... Page 7
Appendix III – Report Distribution List ......................................................... Page 8
             Progress Has Been Made in Improving the Financial Management
                         of Reimbursable Work Authorizations

                                 The Federal Property and Administrative Services Act of
Background
                                 19491 gave the General Services Administration (GSA)
                                 responsibility for managing the Federal Government’s real
                                 property. The Public Buildings Service (PBS) was
                                 established by the Public Building Act of 1959,2 which sets
                                 forth the functions of the PBS, including “providing for
                                 repairs and alterations of Government owned or leased
                                 space on a reimbursable basis.” Federal agencies, such as
                                 the Internal Revenue Service (IRS), prepare a GSA
                                 Reimbursable Work Authorization (RWA) (Form 2957)
                                 whenever repairs or alterations to space are needed. The
                                 RWA specifies the work required, requested start and
                                 completion dates, and total dollar amount allocated for the
                                 work requested.
                                 As the GSA completes the work requested, it periodically
                                 charges the IRS via the Intra-Governmental Payment and
                                 Collection (IPAC) System. The IPAC System is one of the
                                 major components of the Government On-Line Accounting
                                 Link System, and its primary purpose is to provide a
                                 standardized interagency fund transfer mechanism for
                                 Federal Program Agencies. When an IPAC System charge
                                 is received, the Beckley Finance Center (BFC) matches the
                                 charge to a receipt and acceptance certification from the
                                 applicable field plan manager and posts the charge to the
                                 Automated Financial System.3 Charges which cannot be
                                 posted immediately are placed in a suspense account
                                 pending receipt of the GSA work order receipt and
                                 acceptance certification from the field plan manager. The
                                 IRS business unit plan managers are also responsible for
                                 periodically verifying the continued validity of outstanding
                                 RWA-related obligations.
                                 The timely receipt and acceptance of goods and/or services
                                 is a critical component of effective financial management.
                                 Receipt is acknowledgment that goods were received and/or
                                 services were rendered. Acceptance is an acknowledgment
                                 by an authorized Federal Government official that goods


                                 1
                                   40 U.S.C. § 472 (1949).
                                 2
                                   40 U.S.C. § 601-619 (1959).
                                 3
                                   An integrated accounting and budgeting system designed to provide
                                 administrative funds control, along with the ability to access accurate
                                 financial information timely.
                                                                                                   Page 1
             Progress Has Been Made in Improving the Financial Management
                         of Reimbursable Work Authorizations

                                  received and/or services rendered conform to the contract
                                  requirements.
                                  The Chief Financial Officer (CFO) requested that the
                                  Treasury Inspector General for Tax Administration review
                                  the financial management of RWAs. The CFO was
                                  primarily concerned with the excessive age of RWA-related
                                  charges in the IRS suspense account.
                                  This limited-scope review was performed at the BFC,
                                  Beckley, West Virginia, during the period May through
                                  July 2004. The audit was conducted in accordance with
                                  Government Auditing Standards. Detailed information on
                                  our audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  The average age of unpostable IPAC System charges which
Controls Over Timely Posting of
                                  had to be placed in the IRS suspense account has been
Reimbursable Work
                                  substantially reduced. An analysis by the BFC Quality
Authorizations-Related Charges
                                  Assurance section indicated that the age of unpostable items
Have Improved
                                  in suspense decreased from an average age of 8 months in
                                  December 2001 to an average age of 2 months as of
                                  March 31, 2004.
                                  In addition, unpostable RWA-related IPAC System charges
                                  in suspense as of April 30, 2004, were resolved within an
                                  average of 28 calendar days in a sample of 20 charges we
                                  reviewed. The 20 RWA charges reviewed represented
                                  45 percent of the total dollar value of RWA-related charges
                                  in suspense as of April 30, 2004.
                                  Government Accountability Office (GAO) Standards for
                                  Internal Control in the Federal Government4 require that
                                  transactions and other significant events be promptly
                                  recorded and properly classified. This is to ensure pertinent
                                  information maintains its relevance and value to
                                  management in controlling operations and making
                                  decisions.
                                  Improvements in the efficiency in resolving unpostable
                                  RWA-related IPAC System charges which had to be placed
                                  in suspense for long periods of time are attributable to a


                                  4
                                      GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                         Page 2
             Progress Has Been Made in Improving the Financial Management
                         of Reimbursable Work Authorizations

                                  number of factors. First, the BFC Quality Assurance
                                  section performed a series of reviews from June 2002
                                  through July 2003 to determine the causes for the delayed
                                  posting of IPAC System charges. The results of the quality
                                  reviews were 14 short-term recommendations to improve
                                  the processing of IPAC System charges. Second, in
                                  October 2003, the IRS BFC prepared revised procedures to
                                  address the financial management of the RWAs. These
                                  procedures specified the creation of an RWA database to aid
                                  in researching and reconciling the RWAs, as well as to
                                  provide for a current list of RWA contracts and contacts.
                                  To ensure unneeded obligations, including those related to
The Internal Revenue Service
                                  RWAs, are timely deobligated, IRS business unit plan
Recently Revised Its Procedures
                                  managers are required to quarterly certify the continued
as Part of an Ongoing Effort to
                                  validity of outstanding obligations. However, this control
Better Ensure Timely
                                  has not always been completely effective, and the timely
Deobligations, Including Those
                                  deobligation of outstanding obligations has been an ongoing
Related to Reimbursable Work
                                  area of concern for the IRS. In its April 26, 2004, report,
Authorizations
                                  Improvements Needed in IRS’ Internal Controls and
                                  Accounting Procedures,5 the GAO found that the IRS did
                                  not always timely identify and deobligate outstanding
                                  obligations.
                                  To improve the effectiveness of the quarterly certifications
                                  of open obligations, including those related to RWAs, the
                                  CFO recently enhanced IRS procedures. The enhanced
                                  procedures first affected certifications due in July 2004 and
                                  should help address 2 concerns we identified in our review
                                  of a sample of 20 RWAs open 18 months or more.
                                        •   First, although all 20 open RWAs sampled were
                                            timely certified in April 2004 as ongoing projects by
                                            the applicable plan manager, 8 (40 percent) had not
                                            had a charge by the GSA for work performed within
                                            the year preceding the certification. None of the
                                            eight certifications had an explanation for the long
                                            period of inactivity. The revised quarterly
                                            certification procedures specifically require that the
                                            review by field plan managers be supported by
                                            creditable documented evidence and that particular
                                            attention be placed on the RWAs open

                                  5
                                      GAO-04-553R IRS Management Report.
                                                                                           Page 3
Progress Has Been Made in Improving the Financial Management
            of Reimbursable Work Authorizations

                           18 months or more at the time of the review.
                           Because of the limited-scope nature of our review,
                           we did not follow up with the specific plan managers
                           to further clarify the present status of the 20 projects
                           we sampled.
                       •   Second, information regarding the planned
                           completion date of the project was not documented
                           in 11 (55 percent) of 20 certifications reviewed. The
                           absence of this type of information makes it more
                           difficult for the CFO to access the reliability of the
                           certification and identify those obligations for which
                           further inquiry of the applicable plan manager might
                           be appropriate. This is especially true in cases for
                           which the obligation has been open for an extended
                           period of time. All 20 of the certifications we
                           reviewed were based on a sample of RWA-related
                           obligations open 18 or more months at the time of
                           the certification. The revised quarterly certification
                           procedures specifically require the financial plan
                           manager to consider the specified period of
                           performance when performing the certification on
                           obligations open more than 18 months. The revised
                           procedures also specify that credible evidence, such
                           as an extended period of performance or an adjusted
                           project completion date, is required to be
                           documented in the certification.
                    Finally, the enhanced procedures also specify that the CFO
                    will provide feedback to each business unit on not only the
                    timeliness of the certifications but also on whether the
                    certifications contained sufficient evidence to support the
                    validity of the obligations. This feedback should further
                    help ensure the revised certification procedures are
                    implemented as designed.




                                                                            Page 4
             Progress Has Been Made in Improving the Financial Management
                          of Reimbursable Work Authorizations

                                                                                   Appendix I


                      Detailed Objective, Scope, and Methodology

The overall objective of this limited-scope review was to evaluate selected aspects of the
financial management of Reimbursable Work Authorizations (RWA). Specifically, we evaluated
procedures related to the timely posting of RWA-related Intra-Governmental Payment and
Collection (IPAC) System charges and the periodic monitoring of open RWAs performed by the
Office of the Chief Financial Officer. We did not evaluate either the preparation of RWAs or the
year-end accrual of RWA expenditures. We also did not review any actions related to the
detailed administration of the RWAs, which is performed by financial plan managers in the
business units and operating divisions.
To accomplish our objective, we:
I.     Determined whether effective procedures are now in place to ensure the controlling and
       periodic monitoring of the RWAs.
       A. Interviewed Beckley Finance Center (BFC) management to discuss the procedures for
          controlling and monitoring the RWAs.
       B. Determined whether the BFC addresses RWA financial management as part of its
          quality assurance program.
       C. Selected a sample of 20 RWAs open 18 months or more and determined whether they
          contained evidence of periodic reviews. We selected this sample judgmentally from
          the population of RWAs open at the time of our review on June 14, 2004. This
          sampling method was used because we did not intend to project the results. Internal
          Revenue Service records indicate there were 1,810 open RWAs as of June 14, 2004.
          The 20 RWAs we sampled represented 15 percent of the aggregate dollar value of
          this population.
II.    Determined whether the BFC Government Payables Unit has developed effective
       procedures to ensure the timely posting of RWA-related transactions to the general
       ledger.
       A. Interviewed BFC Government Payables Unit management on the procedures for
          receiving and processing RWA accounting data.
       B. Interviewed BFC personnel responsible for posting RWA charges to the general
          ledger.




                                                                                        Page 5
            Progress Has Been Made in Improving the Financial Management
                         of Reimbursable Work Authorizations

       C. Selected a sample of 20 unpostable RWA-related IPAC System charges in suspense
          as of April 30, 2004, and evaluated the timeliness of their resolution. We selected
          this sample judgmentally from the population of 370 RWA-related IPAC System
          charges in suspense as of April 30, 2004. This sampling method was used because
          we did not intend to project the results. The 20 RWA charges reviewed represented
          45 percent of the total dollar value of RWA-related items in suspense as of
          April 30, 2004.
III.   Determined whether the BFC has effective controls to ensure the timely deobligation of
       the RWAs no longer needed.
       A. Interviewed BFC management regarding the procedures for deobligating the RWAs.
       B. Evaluated the methodology used to deobligate funds.




                                                                                       Page 6
             Progress Has Been Made in Improving the Financial Management
                          of Reimbursable Work Authorizations

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Joseph F. Cooney, Lead Auditor
Mildred Woody, Senior Auditor
Rashme Sawhney, Auditor
Niurka M. Thomas, Auditor




                                                                                      Page 7
            Progress Has Been Made in Improving the Financial Management
                         of Reimbursable Work Authorizations

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Financial Officer for Internal Financial Management OS:CFO:I
Director, Beckley Finance Center
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Chief Financial Officer OS:CFO




                                                                                    Page 8
